No. ________

In the Supreme Court of the United States
_____________

JOSEPH OCOL, PETITIONER
v.
CHICAGO TEACHERS UNION, ET AL., RESPONDENTS
_____________
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

_____________

PETITION FOR A WRIT OF CERTIORARI
_____________
TALCOTT J. FRANKLIN
Talcott Franklin PC
1920 McKinney Avenue
7th Floor
Dallas, Texas 75201
(214) 736-8730
tal@talcottfranklin.com
[Additional counsel listed on
inside cover]

JONATHAN F. MITCHELL
Counsel of Record
Mitchell Law PLLC
111 Congress Avenue
Suite 400
Austin, Texas 78701
(512) 686-3940
jonathan@mitchell.law
Counsel for Petitioner

NORMAN RIFKIND
Law Office of Norman Rifkind
100 East Huron Street #1306
Chicago, Illinois 60611
(847) 372-4747
norman@rifslaw.com

QUESTIONS PRESENTED

1. In Minnesota State Board for Community Colleges v. Knight, 465 U.S. 271 (1984), this Court held that the
First Amendment allows States to compel public employees to accept a union as their exclusive bargaining
representative, even when the individual employee
strongly opposes the union, its policies, and its bargaining tactics. In Janus v. American Federation of State,
County & Municipal Employees, Council 31, 138 S. Ct.
2448 (2018), this Court did not overrule the holding of
Knight, but it questioned the soundness of that ruling by
observing that an exclusive-representation regime “substantially restricts the rights of individual employees”
and constitutes a “significant impingement on associational freedoms that would not be tolerated in other contexts.” Janus, 138 S. Ct. at 2460.
Petitioner Joseph Ocol was expelled from membership in the Chicago Teachers Union when he refused to
participate in an illegal one-day strike on April 1, 2016.
The union and its members have also subjected Mr. Ocol
to repeated acts of bullying and persecution for his decision to report to work during the CTU’s illegal strike.
Yet the state of Illinois compels Mr. Ocol to accept this
entity as his exclusive representative, even though this
union will not even allow Mr. Ocol into membership. The
question presented is:
Should the Court overrule Knight and hold
that the First Amendment prohibits States
from forcing dissident public employees to accept a hostile union as their exclusive bargaining representative?
(i)

2. Does 42 U.S.C. § 1983 provide a “good-faith defense” to private entities who violate another’s constitutional rights before the courts have clearly established
the illegality of their conduct and, if so, does this “goodfaith defense” allow a 42 U.S.C. § 1983 defendant who
takes another person’s money or property in violation of
the Constitution — but in reliance on a statute or court
ruling that purported to authorize its conduct and is only
later declared unconstitutional — to keep that money or
property when the owner sues for its return?

(ii)

PARTIES TO THE PROCEEDING

Petitioner Joseph Ocol was the plaintiff-appellant in
the court of appeals.
Respondents Chicago Teachers Union, American
Federation of Teachers, Kwame Raoul, Lara Shayne,
Steven Grossman, Chad D. Hays, Michelle Ishmael, and
Gilbert F. O’Brien Jr. were defendants-appellees in the
court of appeals.
A corporate disclosure statement is not required because Mr. Ocol is not a corporation. See Sup. Ct. R. 29.6.

(iii)

STATEMENT OF RELATED CASES

Counsel is aware of no directly related proceedings
arising from the same trial-court case as this case other
than those proceedings appealed here.

(iv)

TABLE OF CONTENTS

Questions presented .............................................................. i
Parties to the proceeding ....................................................iii
Statement of related cases .................................................. iv
Table of contents ................................................................... v
Table of authorities .............................................................. vi
Opinions below ...................................................................... 3
Jurisdiction ............................................................................ 3
Statutory provisions involved .............................................. 3
Statement ............................................................................... 4
Reasons for granting the petition ....................................... 8
I. The Court should grant certiorari to
reconsider the holding of Knight in light of
Janus .......................................................................... 9
II. The Court should grant certiorari to
consider the scope of the good-faith defense
under 42 U.S.C. § 1983 if a circuit conflict
emerges before the disposition of this
petition ..................................................................... 14
Conclusion ............................................................................ 15
APPENDIX

Seventh Circuit opinion ...................................................... 1a
District Court opinion ........................................................ 7a

(v)

TABLE OF AUTHORITIES

Cases
Gitlow v. New York,
268 U.S. 652 (1925) ............................................................ 9
Janus v. Am. Fed’n of State, Cty., & Mun.
Employees, Council 31,
138 S. Ct. 2448 (2018).............................................. passim
Leatherman v. Tarrant County Narcotics
Intelligence & Coordination Unit,
507 U.S. 163 (1993) ............................................................ 4
Minnesota State Board for Community Colleges v.
Knight, 465 U.S. 271 (1984) ...................................... i, 1, 9
Rodriguez de Quijas v. Shearson/Am. Express,
Inc., 490 U.S. 477 (1989) ................................................... 8
Statutes
28 U.S.C. § 1254(1) ................................................................ 3
115 ILCS 5/11 ........................................................................ 6
115 ILCS 5/3(b) ................................................................... 10
Other Authorities
Dan Goldhaber, John Krieg, Roddy Theobald, and
Nate Brown, Refueling the STEM and Special
Education Teacher Pipelines, Phi Beta Kappan
(December 2015 – January 2016) .................................. 12

(vi)

In the Supreme Court of the United States
_____________
No. ________
JOSEPH OCOL, PETITIONER
v.
CHICAGO TEACHERS UNION, ET AL., RESPONDENTS
_____________
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

_____________

PETITION FOR A WRIT OF CERTIORARI
_____________
Petitioner Joseph Ocol is petitioning for certiorari on
two issues. The first is whether this Court should overrule its holding in Minnesota State Board for Community Colleges v. Knight, 465 U.S. 271 (1984), and prohibit
the states from requiring dissident public employees to
accept an unwanted union as their exclusive bargaining
representative. There is language in Janus v. American
Federation of State, County, and Municipal Employees,
Council 31, 138 S. Ct. 2448 (2018), suggesting that the
Court might be open to reconsidering the holding of
Knight. See id. at 2460. And although the Court has re-

(1)

2
cently passed on opportunities to take up this issue,1 the
facts of this case present an ideal vehicle if the Court
wishes to reconsider or overrule Knight given the union’s egregious treatment of Mr. Ocol and the enmity
that the union’s leaders and membership have displayed
toward him.
Mr. Ocol is also petitioning for certiorari on whether
42 U.S.C. § 1983 allows private defendants to assert a
“good-faith defense” if they violate someone’s constitutional rights before the courts have clearly established
the illegality of their conduct — and what the scope of
that “good-faith defense” should be. Earlier this year,
the Court denied a host of petitions presenting these issues,2 and nothing has changed since that time that
would make those issues more certworthy. Mr. Ocol,
however, is nevertheless petitioning for certiorari on
these issues, even though he is not recommending that
the Court grant certiorari on those issues at this time,
because there is are pending appeals in the Eighth Circuit that might produce a circuit conflict if the court of
appeals rules before this Court disposes of Mr. Ocol’s

1.

2.

See, e.g., Reisman v. Associated Faculties of the University of
Maine, No. 19-847 (cert. denied October 5, 2020); Uradnik v. Inter Faculty Organization, No. 18-719 (cert. denied April 29,
2019).
See, e.g., Mooney v. Illinois Education Ass’n, No. 19-1126 (cert.
denied January 25, 2021); Danielson v. Inslee, No. 19-1130 (cert.
denied January 25, 2021); Lee v. Ohio Education Ass’n, No. 20422 (cert. denied January 25, 2021).

3
petition.3 If that happens, Mr. Ocol will submit supplemental briefing on how the Eighth Circuit’s eventual ruling affects the certworthiness of those issues in Mr.
Ocol’s petition.
OPINIONS BELOW

The opinion of the court of appeals is available at 982
F.3d 529, and it is reproduced at Pet. App. 1a–6a. The
district court’s opinion is available at 2020 WL 1467404,
and it is reproduced at 7a–12a.
JURISDICTION

The court of appeals entered its judgment on December 9, 2020. Pet. App. 1a. Mr. Ocol timely filed this
petition for a writ of certiorari on May 10, 2020.
This Court has jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED

42 U.S.C. § 1983 provides, in relevant part:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
3.

See Hoekman v. Education Minnesota, No. 21-1366 (8th Cir);
Piekarski v. AFSCME Council No. 5, No. 21-1371 (8th Cir.);
Brown v. AFSCME Council 31, No. 21-1640 (8th Cir.); and Fellows v. MAPE, Nos. 21-1684, 21-1723 (8th Cir.).

4
party injured in an action at law, suit in equity,
or other proper proceeding for redress . . .
STATEMENT

Joseph Ocol is a math teacher at Earle STEM Elementary School in the Chicago Public Schools. Mr. Ocol
also coaches the chess teams at Earle. He coaches a girls
team as well as a boys-and-girls team, and his teams include students from the second through the eighth
grades. He has also organized the first-ever school chess
mentoring club, which includes students from pre-K
through eighth grade.4
Although Mr. Ocol is paid a limited stipend for the
time he spends after school as chess coach, most of the
time that he spends as chess coach and chess teacher is
not paid for. He spends four days a week after school
coaching the chess team from 4:00 P.M. to 6:00 P.M., and
he also devotes his Saturdays and Sundays to the chess
team when there is a tournament on those days. Mr. Ocol
provides food, books, and rewards for the chess team out
of his own pocket. The girls chess team that Mr. Ocol
coaches has won numerous tournaments and was invited
to meet President Barack Obama in October of 2016.
Mr. Ocol was a member of the Chicago Teachers Union (CTU) from 2005 until 2016. On April 1, 2016, the
Chicago Teachers Union held an illegal one-day strike
4.

The facts described in this statement reflect the allegations in
Mr. Ocol’s complaint, which must be assumed true at this stage
of the litigation because district court dismissed under Rule
12(b)(6). See Leatherman v. Tarrant County Narcotics Intelligence & Coordination Unit, 507 U.S. 163, 164 (1993).

5
while its members were under contract with the school
district. Mr. Ocol, however, refused to participate in this
illegal strike and reported to work.
Mr. Ocol decided to work rather than strike on April
1, 2016, for several reasons. First, many of Mr. Ocol’s
students live below the poverty line and in dangerous
neighborhoods, and their safety would be endangered if
schools were closed for the day. Second, the parents of
these schoolchildren would need to skip work or arrange
for childcare if the schools were closed, which imposes an
unwelcome cost on many families who are already struggling financially. Third, the CTU’s strike was illegal and
Mr. Ocol did not want to participate in an unlawful activity. Finally, Mr. Ocol did not believe that the union’s demands or its decision to strike would benefit the students. Higher pay and increased benefits for teachers
does not provide any inherent benefit to students, and
the strike harmed Mr. Ocol’s students by depriving them
of the day’s lessons and forcing their parents to skip
work or arrange for childcare at their own expense.
After the strike, the CTU demanded that Mr. Ocol
surrender the pay he received for working on April 1,
2016, or face expulsion from the union. The CTU also
demanded that Mr. Ocol appear for a “hearing” that the
union had scheduled for June 6, 2016, where Mr. Ocol
was to respond to the “charges” that the CTU had levelled against him for refusing to participate in the union’s illegal strike. Mr. Ocol declined to attend the hearing on June 6, 2016, because it conflicted with a practice
session that he had scheduled for his chess team.

6
The CTU then expelled Mr. Ocol from union membership in September of 2016. But it continued to take
“fair-share fees” from his paycheck until this Court issued its ruling in Janus. For the next eight months after
the CTU expelled Mr. Ocol from membership, the
amount of “fair-share fees” that the union garnished
from his paycheck was higher than the membership dues
that he had been charged as a union member, in violation
of state law. See 115 ILCS 5/11 (“The exclusive representative shall certify to the employer an amount not to
exceed the dues uniformly required of members which
shall constitute each non member employee’s fair share
fee.”). On the ninth month after Mr. Ocol’s expulsion
from the union, the amount of fair-share fees was reduced.
On June 27, 2018, this Court announced that publicsector agency shops violate the constitutional rights of
public employees. See Janus, 138 S. Ct. at 2478. The
Court further held that the Constitution forbids publicsector unions to take money from the paychecks of nonunion members unless they “clearly and affirmatively
consent before any money is taken.” Id. at 2486. The union stopped diverting fair-share fees from Mr. Ocol’s
wages in response to Janus.
On December 6, 2018, Mr. Ocol sued the Chicago
Teachers Union, the American Federation of Teachers,
the Attorney General of Illinois, and the members of the
Illinois Labor Relations Board. Mr. Ocol demanded a
refund of the “fair-share fees” that the union had unconstitutionally taken from his wages after it had expelled
him from membership in 2016.

7
Mr. Ocol also challenged the practice of exclusive
representation under the First Amendment. Mr. Ocol
argued that he cannot trust the Chicago Teachers Union
to look after his interests in the collective-bargaining
process, because the union expelled him from membership in 2016 after he had refused to participate in the
CTU’s illegal one-day strike. This deprives Mr. Ocol of
any vote or voice in collective-bargaining matters, yet
Mr. Ocol remains bound to the terms of employment negotiated by a union that he does not belong to and that
expelled him from membership. Mr. Ocol also does not
want to be represented by a union that organizes an illegal strike while he and his fellow teachers are under contract to work — and that ostracizes and retaliates against
those who obeyed the law and reported to work as required by their contract.
The district court dismissed Mr. Ocol’s refund claims
on the authority of the Seventh Circuit’s precedent. Pet.
App. 8a (citing Janus v. AFSCME 31, 942 F.3d 368 (7th
Cir. 2019) (Janus II), cert. denied January 25, 2021;
Mooney v. Illinois Education Association, 942 F.3d 368
(7th Cir. 2019), cert. denied January 25, 2021). The district court also dismissed Mr. Ocol’s constitutional challenge to exclusive representation on the authority of
Knight.5 On appeal to the Seventh Circuit, Mr. Ocol conceded that each of these claims was foreclosed by binding precedent, and he asked the Seventh Circuit to af5.

Mr. Ocol raised some other claims that the district court rejected, Pet. App. 8a–12a, but Mr. Ocol is not pursuing those claims
on appeal.

8
firm the district court’s judgment so that he could pursue these claims before this Court. Pet. App. 2a, 4a.
REASONS FOR GRANTING THE PETITION

The petition presents an ideal vehicle if the Court
wishes to reconsider or overrule its holding in Knight
and end the practice of exclusive representation in public
employment. The state of Illinois is forcing Mr. Ocol to
accept the representation of a union that expelled him
from membership after he refused to participate in an
illegal one-day strike. Mr. Ocol has no voice or vote in
this entity, yet he must accept this union as his exclusive
representative whether he likes it or not, and he remains
bound to the terms of employment negotiated by a union
that he does not belong to and that expelled him from
membership.
Janus did not go so far as to overrule the holding of
Knight, but it did call into question the constitutionality
of exclusive representation in public-sector employment.
See Janus, 138 S. Ct. at 2460 (observing that an exclusive-representation regime “substantially restricts the
rights of individual employees” and constitutes a “significant impingement on associational freedoms that would
not be tolerated in other contexts.”). The lower courts,
however, remain bound by the holding of Knight until
this Court overrules it,6 so there is no chance that a cir-

Rodriguez de Quijas v. Shearson/Am. Express, Inc., 490 U.S.
477, 484 (1989) (“If a precedent of this Court has direct application in a case, yet appears to rest on reasons rejected in some
other line of decisions, the Court of Appeals should follow the
(continued…)
6.

9
cuit split will ever develop on this issue. If the Court
wants to drop the other shoe and overrule Knight, then
it is hard to imagine a better vehicle than this case in
which to do so.
I.

THE COURT SHOULD GRANT CERTIORARI TO
RECONSIDER THE HOLDING OF KNIGHT IN
LIGHT OF JANUS

In Minnesota State Board for Community Colleges
v. Knight, 465 U.S. 271 (1984), this Court held that the
First Amendment7 allows States to compel public employees to accept a union as their exclusive bargaining
representative, even when the individual employee
strongly opposes the union, its policies, and its bargaining tactics. The holding of Knight predates this Court’s
ruling in Janus, which holds that the First Amendment
prohibits States from requiring public employees to join
or pay a union as a condition of employment. But there is
tension between the holding of Janus, which outlawed
the compulsory agency shop in public employment, and
the holding of Knight, which allows States to continue
forcing dissident employees to accept an unwanted union
as their exclusive bargaining representative. If the First
Amendment gives public employees the right to withhold

7.

case which directly controls, leaving to this Court the prerogative of overruling its own decisions.”).
For simplicity and ease of exposition, our brief will use “the
First Amendment” as shorthand for the incorporated freespeech and associational-freedom protections that the Fourteenth Amendment imposes on the States. See, e.g., Gitlow v.
New York, 268 U.S. 652, 666 (1925).

10
financial support from a union that does not represent
their interests, then it is not apparent why those same
employees can simultaneously be compelled to accept
that union as an agent that acts on their behalf.
Mr. Ocol’s situation highlights the difficulties of reconciling the regime of exclusive representation with the
principle of employee autonomy that this Court so
strongly endorsed in Janus. Mr. Ocol is no longer a
member of the Chicago Teachers Union because the union expelled him from membership in retaliation for his
refusal to participate in an illegal one-day strike. Yet the
law of Illinois and the CTU’s collective-bargaining agreement compel Mr. Ocol to accept this hostile entity as his
representative in negotiating his terms of employment
with the school district — and he must allow this union to
act on his behalf. See 115 ILCS 5/3(b). He must also accept the results of the union’s negotiations even though
he is unable to join the union, vote on the contract, or influence the negotiating process in any way. Forcing a
public employee to allow an unwanted agent to act on his
behalf is as much an affront to associational freedom as
forcing him to pay monthly agency fees, and it not apparent how the First Amendment can allow these shotgun-marriage arrangements to continue when Janus
purports to give public employees the right to decide
whether and to what extent they will support or associate with a union.
The Janus opinion repeatedly acknowledges that exclusive union bargaining abridges the associational freedom of individual employees. See Janus, 138 S. Ct. at
2460 (“Designating a union as the employees’ exclusive

11
representative substantially restricts the rights of individual employees.”); id. at 2478 (“It is also not disputed
[in Janus] that the State may require that a union serve
as exclusive bargaining agent for its employees — itself a
significant impingement on associational freedoms that
would not be tolerated in other contexts.”). Janus also
recognizes that collective bargaining in public education
requires the union to stake out positions on controversial
political issues — including merit pay for teachers, the
role of seniority and tenure, how teachers should be
evaluated, and political issues such as climate change and
LGBT rights. See id. at 2474–77. So it is inevitable that
individual teachers will disapprove of the bargaining positions adopted by the exclusive representative, even
when the representative is legally required to act on
their behalf. Forcing a non-union teacher to accept the
representation of an unwanted union — and forcing that
non-union teacher to accept the union-negotiated terms
of employment — violates a public employee’s freedom of
association, and the Court should grant certiorari to consider whether this regime can continue to exist under
Janus and the First Amendment.
The Court should also grant certiorari because exclusive representation allows the union to pick winners and
losers and negotiate contracts that benefit certain employees at the expense of others. This problem is particularly acute in the teaching profession, where collectivebargaining agreements force teachers into a unionimposed salary structure that harms teachers who could
negotiate better deals for themselves outside the collective-bargaining process. One of the most perverse fea-

12
tures of teacher collective bargaining is the insistence on
a single salary schedule for teachers regardless of subject matter. There is a well-documented nationwide
shortage of teachers in science, technology, engineering,
and mathematics (STEM). See, e.g., Dan Goldhaber,
John Krieg, Roddy Theobald, and Nate Brown, Refueling the STEM and Special Education Teacher Pipelines, Phi Beta Kappan at 56–62 (December 2015 – January 2016). And the reason for this shortage is that college graduates with degrees in STEM fields have more
lucrative opportunities in the private sector than those
who graduate with degrees in fields such as elementary
education. Schools must therefore pay higher salaries to
STEM teachers to induce them to accept jobs in the
teaching profession — just as universities must pay higher salaries to law professors and business-school professors. But collective bargaining requires teachers to be
paid the same across subject matter, which benefits elementary-education instructors at the expense of math
teachers such as Mr. Ocol.
Collective bargaining also empowers the union to impose a salary structure that benefits long-tenured incumbent teachers — who often hold leadership positions
in the local union and wield the most power and influence
over collective-bargaining matters — at the expense of
entry-level teachers and lateral hires. Collectivebargaining agreements require school districts to pay
exceedingly low salaries to entry-level teachers — no
matter how talented and no matter how impressive their
academic backgrounds or previous careers may have
been. This deters talented and capable individuals from

13
entering the teaching profession and shields incumbent
teachers from competition. And the future entry-level
teachers that the union is supposedly “representing” are
not even members of the bargaining unit at the time
these agreements are made — so they have no vote and
no say in the terms of employment that the union negotiates for them.
All of this makes this case an especially attractive vehicle for reconsidering the constitutionality of exclusive
representation in the public sector. Mr. Ocol is uniquely
harmed by the laws that compel him to accept the Chicago Teachers Union as his exclusive bargaining representative. Not only because the union expelled him from
membership — making it impossible for Mr. Ocol to have
any voice or vote in the entity that purports to represent
him — but also because Mr. Ocol is a STEM teacher who
is harmed by the union-negotiated one-size-fits-all salary
structure that fails to account for the fact that certain
fields are in higher demand than others. (Is there any
university in the United States that pays its humanities
professors the same salary as its law professors and
business-school professors?) The continued existence of
Knight means that a circuit conflict will never develop on
this issue, and it is hard to imagine a better vehicle than
this case for reconsidering the holding of Knight.

14
II. THE COURT SHOULD GRANT CERTIORARI TO
CONSIDER THE SCOPE OF THE GOOD-FAITH
DEFENSE UNDER 42 U.S.C. § 1983 IF A CIRCUIT
CONFLICT
EMERGES
BEFORE
THE
DISPOSITION OF THIS PETITION

Mr. Ocol is also seeking certiorari on the scope of the
“good-faith defense” under 42 U.S.C. § 1983, but the
Court denied certiorari on that question earlier this year
and no circuit conflict has emerged since the disposition
of those petitions.8 So Mr. Ocol is not recommending that
the Court grant certiorari on that issue at this time.
But Mr. Ocol is nevertheless petitioning for certiorari
on the good-faith issue because there are pending appeals in the Eighth Circuit that might produce a circuit
conflict before this Court disposes of Mr. Ocol’s petition.9
If that happens, Mr. Ocol will submit supplemental briefing on whether (and how) the Eighth Circuit’s anticipated rulings affects the certworthiness of those issue. For
now, however, Mr. Ocol sees no basis for distinguishing
his petition on his issue from the myriad petitions that
this Court denied on January 25, 2021.

8.

9.

See, e.g., Mooney v. Illinois Education Ass’n, No. 19-1126 (cert.
denied January 25, 2021); Danielson v. Inslee, No. 19-1130 (cert.
denied January 25, 2021); Lee v. Ohio Education Ass’n, No. 20422 (cert. denied January 25, 2021).
See Hoekman v. Education Minnesota, No. 21-1366 (8th Cir);
Piekarski v. AFSCME Council No. 5, No. 21-1371 (8th Cir.);
Brown v. AFSCME Council 31, No. 21-1640 (8th Cir.); and Fellows v. MAPE, Nos. 21-1684, 21-1723 (8th Cir.).

15
CONCLUSION

The petition for writ of certiorari should be granted.
Respectfully submitted.
TALCOTT J. FRANKLIN
Talcott Franklin PC
1920 McKinney Avenue
7th Floor
Dallas, Texas 75201
(214) 736-8730
tal@talcottfranklin.com

JONATHAN F. MITCHELL
Counsel of Record
Mitchell Law PLLC
111 Congress Avenue
Suite 400
Austin, Texas 78701
(512) 686-3940
jonathan@mitchell.law

NORMAN RIFKIND
Law Office of Norman Rifkind
100 East Huron Street #1306
Chicago, Illinois 60611
(847) 372-4747
norman@rifslaw.com
May 10, 2021

1a
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
——————————
No. 20-1668
JOSEPH OCOL, on behalf of himself
and all others similarly situated,
Plaintiff-Appellant,
v.
CHICAGO TEACHERS UNION, et al.,
Defendants-Appellees.
——————————
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 18 CV 8038 — Harry D. Leinenweber, Judge.
——————————
SUBMITTED1 SEPTEMBER 29, 2020 — DECIDED
DECEMBER 9, 2020
——————————

1.

This court granted the parties’ joint motion to waive oral argument. The case is therefore submitted on the briefs.

2a
Before ROVNER, SCUDDER, and ST. EVE, Circuit
Judges.
ROVNER, Circuit Judge. In Janus v. AFSCME,
Council 31, 138 S. Ct. 2448 (2018) (Janus I), the Supreme Court reversed course on 41 years of jurisprudence sanctioning agreements between state-government agencies and unions authorizing the unions to collect fair-share fees from non-union members to cover
costs incurred representing them. Joseph Ocol, a math
teacher in the Chicago public school system, then filed
this putative class action lawsuit under 42 U.S.C. § 1983
and 28 U.S.C. § 2201 against the Chicago Teachers Union and the American Federation of Teachers (“Union
defendants”) as well as the Attorney General of Illinois
and the chair and members of the Illinois Educational
Labor Relations Board (“state defendants”). As relevant
here, he sought recovery of payments he had previously
made under protest to the Chicago Teachers Union and
also challenged the constitutionality of the exclusive representation provisions of Illinois law as they applied to
non-union members. Ultimately the district court dismissed or granted summary judgment to all defendants,
and Ocol appeals. As Ocol admits, however, his claims
are barred by existing precedent, and we therefore affirm.
I.
Ocol is a math teacher at Earle STEM Elementary
School and was a member of the Chicago Teachers Union from 2005 through 2016. According to his complaint,
in September 2016 he was expelled from the Union after
refusing to participate in a one-day strike on April 1,
2016. He did, however, remain obligated to pay so-called

3a
“fair-share fees” to the Union under the portion of the
Illinois Educational Labor Relations Act, 115 ILCS 5/15/21, authorizing unions and public employers to include
in their collective bargaining agreements a fair share
clause “requiring employees covered by the agreement
who are not members of the organization to pay the organization a fair share fee for services rendered.” Id.
§ 5/11.
Ocol continued paying the required fair-share fees
until 2018, when the Supreme Court in Janus I overruled Abood v. Detroit Board of Education, 431 U.S. 209
(1977), and concluded that extraction of such fees from
non-union members violated those employees’ First
Amendment rights, see Janus I, 138 S. Ct. at 2478. The
district court then dismissed the state defendants on
their motion. The Union defendants moved for summary
judgment, but the parties agreed to stay consideration of
the motion until after our court resolved Janus I on remand. In that appeal, we considered and rejected Mark
Janus’s argument that he was entitled to a refund for
some or all of the fair-share fees he had paid under protest. Janus v. AFSCME, Council 31, 942 F.3d 352 (7th
Cir. 2019) (“Janus II”); see also Mooney v. Ill. Educ.
Ass’n, 942 F.3d 368 (7th Cir. 2019) (rejecting plaintiff’s
assertion that she was entitled to the equitable remedy
of restitution of past fair-share fees). Ocol then conceded
defeat on his Section 1983 claim for a refund of his fairshare payments as well as his First Amendment challenge to exclusive representation. The district court thus

4a
granted the Union defendants’ motion for summary
judgment.2
II.
On appeal, Ocol renews his constitutional challenges
to his past payment of fair-share fees to the Chicago
Teachers Union and to its designation as exclusive representative of both union and non-union members alike
under Illinois law. He admits, however, that both claims
are squarely foreclosed by precedent and requests that
we summarily affirm judgment in the defendants’ favor
so that Ocol may appeal to the Supreme Court.
As Ocol recognizes, our holding in Janus II, 942 F.3d
at 367, precludes his argument that he is entitled to a refund of his past compulsory fair-share payments. The
plaintiff in Janus I, who, like Ocol, had paid fair-share
fees under protest to a union designated as the representative of his employee unit (the Illinois Department of
Healthcare and Family Services), sought recovery of his
2.

In addition to his constitutional claims, Ocol sought repayment
of his fair-share fees under a state-law tort of conversion claim.
He also mounted an antitrust challenge to the Union’s collective
bargaining agreements, arguing that the alleged anti-competitive effects of designating the Union as the exclusive representative of both members and non-members alike amounted to
a violation of the Sherman Act. The district court rejected both
of these claims, noting that the tort law claim was pre-empted
by the Illinois Educational Labor Relations Act, 115 ILCS 5/15/21, and that the antitrust claim fared no better: the principle
of exclusive representation has longstanding judicial acceptance
and in any event the state action exception to the Sherman Act
would surely apply in light of the designation by the Illinois legislature of exclusive bargaining as the authorized system governing labor relations for Illinois public employees. Ocol is not
pursuing either of these claims on appeal.

5a
past payments. We held that a private party acting under color of state law for § 1983 purposes was entitled to
a good-faith defense, which applied to the union’s collection of fair-share fees before the Supreme Court’s decision. Janus II, 942 F.3d at 364–65. We thus concluded
that Janus was limited to “declaratory and injunctive relief, and a future free of any association with a public union.” Janus II, 942 F.3d at 367. As Ocol admits, the exact
same rationale applies to bar his claim for repayment of
past fair-share fees from the Chicago Teachers Union.
Likewise, Ocol’s constitutional challenge to the Union’s exclusive representation goes nowhere. The Illinois
Educational Labor Relations Act, 115 ILCS 5/1-5/21,
governs labor relations between public educational employers and employees through a system of exclusive
representation allowing the representative union to negotiate employment conditions, resolve disputes, and select employee representatives pursuant to collective bargaining agreements. Ocol argues that the Act’s exclusive
representation provisions violate the First Amendment
by restricting his right to bargain as an individual for the
terms and conditions of his employment. Here again, as
Ocol himself acknowledges, precedent forecloses his
claim. Specifically, in Minnesota State Board for Community Colleges v. Knight, the Supreme Court rejected
a First Amendment challenge to a similar exclusive representation provision applicable to state colleges in Minnesota, 465 U.S. 271 (1984) (upholding a provision of
Minnesota Public Employment Labor Relations Act that
precluded non-designated faculty representatives from
bargaining directly with college employers). And more
recently in Janus I, the Court gave no indication that its
ruling on fair-share fees necessarily undermined the sys-

6a
tem of exclusive representation. See Janus I, 138 S. Ct.
at 2467 (noting that union’s duty of fair representation to
both members and nonmembers continues despite elimination of fair-share fees because benefits of exclusive
representation ?greatly outweigh any extra burden imposed by the duty of providing fair representation for
nonmembers”). As Ocol recognizes, Knight and its progeny firmly establish the constitutionality of exclusive
representation, and the Supreme Court is the proper forum for challenging that rule. We thus grant his request
for summary affirmance so that he may seek a petition
for certiorari to pursue his arguments there.
III.
For the foregoing reasons, we AFFIRM the district
court’s grant of summary judgment.

7a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
JOSEPH OCOL, on behalf
of himself and all others
similarly situated,
Plaintiff,
v.
CHICAGO TEACHERS
UNION, et al.,

Case No. 18 C 8038
Judge Harry D.
Leinenweber

Defendants.
MEMORANDUM OPINION AND ORDER
I. BACKGROUND
This lawsuit is one of several filed across the United
States in the wake of the Supreme Court’s decision in
Janus v. AFSCME 31, 138 S. Ct. 2448 (2018). The plaintiff, a non-union public school teacher in the Chicago
public schools, seeks to recover for himself and a putative class the so-called fair share fees he paid to the union prior to Janus, both pursuant to Section 1983 and the
state tort law of conversion. He also seeks a declaration
that his constitutional rights are violated by forcing him
to accept the Unions as his exclusive bargaining agent
and that the exclusive bargaining provision of the defendants’ collective bargaining agreement with the Chi-

8a
cago public schools violates the United States antitrust
laws.
While Defendants’ Motion for Summary Judgment
was pending in this Court, the parties agreed to stay
consideration of the Motion until the Seventh Circuit
disposed of Janus on remand from the Supreme Court
because that court was considering the same issue, i.e.,
the return of the fair share fees. The Seventh Circuit recently held that the defendant union need not return fair
share fees collected prior to Janus. Janus v. AFSCME
31, 942 F.3d 368 (7th Cir. 2019). See also Mooney v. Illinois Education Association, 942 F.3d 368 (7th Cir.
2019). Plaintiff acknowledges that this decision forecloses his Section 1983 claim for refunds of the fair share
payments and his First Amendment challenge to the Union’s exclusive representation.
However, Plaintiff still has two arrows in his quiver:
namely, a claim for refund of the fair share fees under
state tort law (as opposed to Section 1983), and an antitrust challenge to the Union’s collective bargaining
agreements that command uniform salaries for teachers
regardless of subject matter and that compels entrylevel teachers to accept exceedingly low salaries negotiated by a bargaining unit to which they do not belong.
The Unions respond by arguing that the Illinois Educational Labor Relations Act (“ILERA”) preempts the
Plaintiff’s tort claim and in any event reliance in good
faith on an unconstitutional statute is a defense to Illinois
tort law. They also argue that antitrust claim is subject
to dismissal due to action immunity, statutory labor exemption, and the Noerr–Pennington immunity.

9a
II. DISCUSSION
A. The Illinois Tort of Conversion
Plaintiff contends that he is entitled to recover his
past fair share payments because they were collected
pursuant to an unconstitutional statute, i.e., the statute
that authorized the fair share dues scheme. He responds
to Defendants’ preemption argument by claiming that
the Defendants have taken the particular statutory provision that they relied upon out of context and that
ILERA only provides the exclusive remedy for such a
claim for fair share when the statute is triggered by the
employee filing an objection to the fair share fees. Since
plaintiff did not file and objection with ILERA, he argues that the statute does not apply and there is no
preemption. However, this argument ignores a host of
Illinois cases in which the state and federal courts have
held tort claims to be exactly the type of claims
preempted by ILERA. A claim for conversion, being a
tort claim, is thus preempted. Plaintiff fails to cite any
case in which an employee has been allowed to proceed
in state court on a tort claim against either the Union or
the school employer, while Defendants have cited a host
of cases to the contrary. See Shaikh v. Watson, 2011 WL
589638 (N.D. Ill. 2011); and Pugh v. Chicago Teachers
Union, 2012 WL 1623222 (N.D. Ill. 2012).
Defendants also argue that there can be no such tort
claim because the Defendants’ actions were taken pursuant to a statute that was existing at the time and thus
were taken in good faith. They claim this as a defense to
Illinois tort law. Plaintiff argues, citing Norton v. Shelby
County, 118 U.S. 425, 442 (1886), that unconstitutional
statutes are void ab initio and therefore cannot be a justification for a wrongful taking even if done in good faith.

10a
However, as Defendants point out, the Norton case has
been distinguished by the Seventh Circuit in Ryan v.
County of DuPage, 45 F.3d 1090, 1094 (1995), which held
that existing statutes are “hard facts” on which people
must be allowed to rely in making decisions and in shaping their conduct. Thus, conduct lawful under a statute
cannot be later found wrongful due to a Supreme Court
decision striking down that statute. Plaintiff criticizes
the Ryan decision, but this Court is bound by it.
There have been numerous cases throughout the
United States seeking state tort relief in lieu of Section
1983 proceedings after Janus, but none has been successful. At least Plaintiff has failed to cite any. The latest
such case that denies recovery for fair share fees under
state tort law comes from the Sixth Circuit in Lee v. Ohio
Education Association, No. 19-3250 (slip op. February
24, 2020). For these reasons the Defendants’ Motion for
Summary Judgment of Plaintiff’s tort claim for conversion under Illinois law is granted.
B. The Antitrust Claim
Plaintiff’s antitrust claim is based on a tea leaf reading of the Supreme Court’s Janus decision, in which the
majority opinion stated that designating a union to be
the exclusive bargaining agent, “substantially restricts
the rights of individual employees” and that such designation constitutes “a significant impingement on associational freedoms that would not be tolerated in other contracts.” Janus, 138 S. Ct. 2448 (2018). However, the constitutionality of exclusive representation was not before
the Court and the statements quoted were dicta and
made in response to the argument that requiring the Union, as the exclusive bargaining agent, to represent nonunion members without fee (the so-called “free rider”

11a
argument) constituted a benefit to the non-union employee and a detriment to the union. However, the connection between associational freedom and the First
Amendment was considered in Minnesota State Board
for Community Colleges v. Knight, 465 U.S. 271 (1984),
in which the Supreme Court held that the First Amendment permitted giving “the exclusive representative a
unique role” that justified infringement of the rights of
nonmembers. In addition, the Plaintiff admits that the
Supreme Court has never gone so far as to hold that the
Constitution requires public employers to permit nonunion employees to negotiate outside the Union negotiation. Knowing he is foreclosed from making this constitutional argument, he instead relies on the antitrust laws
to make his case.
Plaintiff’s antitrust argument is based on what he believes to be the anticompetitive evils of the present system that result from designating a Union to be the exclusive bargaining agent to the exclusion of non-members.
He contends that such an arrangement allows the Union,
through negotiation of a collective bargaining agreement, the power to benefit some teachers to the detriment of others by forcing a uniform salary structure regardless of subject matter and which allows the union to
reward long-term incumbent teachers (who often hold
leadership positions within the union) at the expense of
payment of low salaries to entry level teachers. The exercise of these powers resulting from the exclusive bargaining agent role is clearly anti-competitive and a violation of the rule of reason.
Regardless of what Plaintiff thinks of the principle of
exclusive representation for public employees and the
collective bargaining agreements that result from such

12a
exclusive representation, it has been the accepted system in Illinois for the last 35 years and is the system
adopted in most sister states. It is difficult to see how
such a system can be in violation of the federal antitrust
laws. Moreover, since the exclusive bargaining principle
has been designated by the Illinois legislature to be the
system employed for labor relations for Illinois public
employees, the state action exception to the Sherman
Act clearly applies. Parker v. Brown, 317 U.S. 341 (1943).
Finally, there is no way under current statutes and Supreme Court decisions that the Plaintiff’s antitrust claim
could be viable, and he has suggested none. Accordingly,
Summary Judgment of dismissal of the antitrust claim is
granted.
III. CONCLUSION
For the reasons stated herein, Defendants’ Motion
for Summary Judgment is granted in favor of the Defendants and against the Plaintiff on all claims.
IT IS SO ORDERED.
/s/ Harry D. Leinenweber
Harry D. Leinenweber, Judge
United States District Judge
Dated: 3/26/2020

